                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1-13050030                                                                    Page 1 of 1



         This allegation stemmed from a previous case 1 where a complainant2 alleged he had been
         removed from a National Science Foundation (NSF) award 3 made under the American Recovery
         and Reinvestment Act (ARRA) for reporting the misuse of funds to his university4 • In that case,
         our investigation did not find evidence that the allegations of misuse of NSF funds were
         substantiated or actionable with respect to the NSF award, and NSF issued a Final Decision that
         the awardee presented clear and convincing evidence that it would have removed the
         complainant from the award notwithstanding his allegations of misuse ofNSF funds.

         In this matter, the same complainant alleged that the university removed a scholarship from his
         control in retaliation for the same conduct as in his previous allegation. The decision to remove
         the scholarship from the complainant's control was made over one year before the complainant
         made his allegations of misuse ofNSF funds to the university, and before the complainant made
         any protected disclosures as defined by ARRA. We found credible the university's claim that,
         prior to our involvement, it had spoken with the complainant and agreed to return the funds to his
         control. The complainant confirmed that the scholarship funds had been returned to his control.

         Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
